Visa Low Rate Credit Card
Account Disclosures

2303 South Center Road
Burton, MI 48519
Ph 810-715-3542 • TF 800-882-6457
Fx 810-600-2590
www.elgacu.com

INTEREST RATES AND INTEREST CHARGES
Annual Percentage Rate (APR)
for Purchases, Balance Transfers
and Cash Advances

15.90%
17.90%
This APR may be applied to your account if you make a late payment.
How long with the Penalty APR apply? If your APR is increased due to a
late payment, the Penalty APR will apply until you make six consecutive
minimum payments when they are due.

Penalty APR and
When It Applies

Paying Interest

Your due date is at least 25 days after the close of each billing cycle. We
will not charge any interest on the portion of the purchases balance that you
pay by the due date each month. We will begin charging interest on cash
advances and balance transfers on the transaction date.

For Credit Card Tips from the
Consumer Financial Protection
Bureau

To learn more about factors to consider when applying for or using a credit
card, visit the website of the Consumer Financial Protection Bureau at:
http://www.consumerfinance.gov/learnmore.
SERVICE CHARGES

Annual Service Charge

None

Transaction Service Charges

None
None
Up to 2% of the US dollar amount of the foreign transaction.
This fee applies to any credit card transaction made at a location in a foreign country, or payable to a merchant located in a foreign country even if
you initiate the transaction from within the United States.

• Cash Advance
• Balance Transfer
• Foreign Transaction

Penalty Service Charges

Up to $25
None
$25

• Late Payment
• Over-the-Credit Limit
• Returned Payment
Other Service Charges:
Replacement Card
Rush Replacement Card
Rush Delivery of Card

$5
$10
$30

How We Will Calculate Your Balance: We use a method called “average daily balance” (including new purchases).
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided in your
Credit Card Account Agreement.
Additional Information
The Monthly Periodic Rate for the Purchases, Balance Transfers, and Credit Advances APR shown above is: 15.90%.
These Account Disclosures are part of and integrated with your VISA Credit Card Agreement with ELGA Credit Union.
We reserve the right to amend the VISA Credit Card Agreement as permitted by law. The above rates and fees are effective as of May 12, 2021.

© 2021 Farleigh Wada Witt. All Rights Reserved.

Low Rate CC Account Disclosures • 05-05-21

